No.
October Term, 2020
In the

Supreme Court of the United States
Daniel Page,
Petitioner,
v.
Renee Baker, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed In Forma Pauperis
Rene L. Valladares
Federal Public Defender,
District of Nevada
*C.B. Kirschner
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
CB_Kirschner@fd.org
*Counsel for Daniel Page

Petitioner Daniel Page respectfully asks for leave to file the
attached Petition for Writ of Certiorari without prepayment of costs and
to proceed in forma pauperis. Mr. Page has been granted leave to so
proceed in the District Court and in the United States Court of Appeals.
Counsel was appointed by the United States District Court for the
District of Nevada under 18 U.S.C. ยง 3599(a)(2). See also SUPREME
COURT RULE 39.1 (authorizing leave to proceed in forma pauperis).
Accordingly, no affidavit is attached
Dated July 27, 2020.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ CB Kirschner
C.B. Kirschner
Assistant Federal Public Defender

